GR-40-98-002
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services 
Grants to the Volusia County, Florida, Sheriff's Office
Grants Numbers 95-CC-WX-0257 and 96-CL-WX-0012
GR-40-98-002
January 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Volusia County, Florida, Sheriff's Office (Volusia
County). Volusia County received a grant of $467,549 to hire or rehire seven additional
sworn law enforcement officers under the Accelerated Hiring, Education, and Deployment
(AHEAD) program; and $160,000 to redeploy seven officer full-time equivalents (FTEs) under
the Making Officer Redeployment Effective (MORE) program. The purpose of the additional
officers is to enhance community policing efforts.
In brief, our audit determined that Volusia County:

- Claimed reimbursement for officers assigned to community policing, instead of
  officers hired with AHEAD grant funds. In addition, Volusia County hired the officers into
  lower-paid positions than indicated in its grant application. As a result, Volusia County
  claimed unallowable costs for salaries and fringe benefits totaling $13,854.
- Used previously budgeted funds for law enforcement as the source of the local
  matching funds for the AHEAD grant. As such, the entire grant amount ($467,549) was
  unsupported. 
- Supplanted Federal funds of $160,000 under the MORE grant. Volusia County used
  Federal funds to purchase computer equipment and software it had planned to purchase with
  other funds.
- Claimed reimbursement for $3,420 of computer equipment which was not approved in its
  MORE grant application. 
- Did not track the redeployment of officers awarded under the MORE grant.
  Consequently, $119,472 reimbursed to Volusia County under the MORE grant was unsupported.
- Purchased $77,941 of computer equipment for the MORE grant that was not allowable as
  part of the local match.
- Did not develop a formal plan to retain the grant-funded positions after the grants
  expire.
- Submitted the Officer Progress Reports and the Annual Department Report to COPS late;
  submitted some Financial Status Reports to the Office of Justice Programs (OJP) late; and
  overstated the total program costs reported for the AHEAD grant by $15,003; and for the
  MORE grant by $197,413.
#####